                 Fiscal Year 2006 Evaluation of Information Security

                          at the Railroad Retirement Board 

                        Report No. 06-11, September 27, 2006 


                                    INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG) evaluation of
information security at the Railroad Retirement Board (RRB).

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act (RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs
provide income protection during old age and in the event of disability, death, temporary
unemployment or sickness. The RRB paid over $9.2 billion in benefits during fiscal year
(FY) 2005.

The RRB’s information system environment consists of six major application systems
and two general support systems, each of which has been designated as moderate
impact systems in accordance with standards and guidance promulgated by the
National Institute of Standards and Technology (NIST). The major application systems
correspond to the RRB’s critical operational activities, including RRA benefit payments,
RUIA benefit payments, maintenance of railroad employee compensation and service
records, administration of Medicare entitlement, financial management, and the RRB’s
financial interchange with the Social Security Administration. The two general support
systems comprise the mainframe computer and the end-user computing systems.

This evaluation was conducted pursuant to the E-Government Act of 2002 (P.L.
107-347), Title III, the Federal Information Security Management Act of 2002 (FISMA)
which requires annual agency program reviews, Inspector General security evaluations,
and annual agency report to the Office of Management and Budget (OMB), and an
annual OMB report to Congress. FISMA also establishes minimum requirements for the
management of information security in the following nine areas:

   1.   Risk Assessment
   2.   Policies and Procedures
   3.   Testing and Evaluation
   4.   Training
   5.   Security Plans
   6.   Remedial Action Process
   7.   Incident Handling and Reporting
   8.   Continuity of Operations
   9.   Inventory of Systems
Information security means protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or destruction in order to
provide integrity, confidentiality, and availability. FISMA requires agencies to report any
significant deficiency in policy, procedure, or practice as a material weakness in
reporting under the Federal Managers’ Financial Integrity Act.1

The OIG previously evaluated information security at the RRB during FYs 2000 through
2005, and reported weaknesses throughout the RRB’s information security program.2
The OIG also cited the agency with significant deficiencies in access controls in the
mainframe and end-user computing environments, training provided to staff with
significant security responsibilities, and delays in meeting FISMA requirements for both
risk assessments and periodic testing and evaluation.

Objective, Scope and Methodology

This evaluation was performed to meet FISMA requirements for an annual OIG
evaluation of information security that includes:

      1. testing of the effectiveness of information security, policies, procedures, and
         practices of a representative subset of the agency’s information systems; and

      2. an assessment of compliance with FISMA requirements and related information
         security policies, procedures, standards, and guidelines.

To meet the first requirement, the OIG audited the incident handling and reporting
program at the RRB and evaluated the RRB’s disaster recovery plan. We also started
an audit of the application controls of the Daily Activity Input System/Checkwriting
Integrated Computer Operation component application of the RRA benefit payment
major application, which is nearing completion. These reviews were conducted in FY
2006.

To meet the second requirement, we considered the results of prior audits and
evaluations of information security during FYs 2000 through 2005, including the status
of related recommendations for corrective action. We also obtained and reviewed
documentation supporting the RRB’s performance in meeting FISMA requirements and
interviewed responsible agency management and staff.

The primary criteria for this evaluation were:

      •   FISMA requirements;

1
    A significant deficiency is a weakness in an agency’s overall information systems security program or
    management control structure, or within one or more information systems, that significantly restricts the
    capability of the agency to carry out its mission or compromises the security of its information,
    information systems, personnel, or other resources, operations, or assets.
2
    OIG audit reports are maintained on the RRB website at http://www.rrb.gov/oig/library.asp.
   •   OMB Circular A-130, “Management of Federal Information Resources”; and
   •   NIST standards and guidance.

Our work was performed in accordance with generally accepted government auditing
standards as applicable to the objective. Fieldwork was conducted at RRB
headquarters in Chicago, Illinois from May through September 2006.

                              RESULTS OF EVALUATION 


The RRB continues to experience difficulty in achieving an effective, FISMA compliant
security program. During FY 2006, the agency completed corrective action to eliminate
the previously reported significant deficiency in training. Previously identified significant
deficiencies in access controls, risk assessments, and periodic testing and evaluation
continue to exist, as well as other observed weaknesses in the agency’s implementation
of requirements for risk based policies and procedures, a remedial action process,
continuity of operations, and inventory of systems.

The agency is addressing their significant deficiencies in the previously reported areas
of access controls, risk assessments, and periodic testing and evaluation. However,
much work remains to be completed.

The agency is also in the process of forming an agency-wide Security and Privacy
Committee. The committee is expected to include employee representatives from each
major application and general support system. They will be responsible for providing
direction, issuing guidance, compiling certifications, and providing specific oversight for
agency-wide implementation of FISMA requirements including risk assessments, annual
evaluations, and testing of controls including certification and accreditation. The RRB’s
three-member Board has not yet formally approved this committee.

The details of our assessment of agency progress in complying with FISMA
requirements and a summary of the weaknesses identified during our FY 2006 tests of
the effectiveness of information security, policies, procedures, and practices, follow.
Agency management provided no formal comments for publication with this report.

Risk Assessment

The RRB has not yet implemented an effective risk assessment process that complies
with Federal information processing standards and documents critical agency
determinations concerning risk. Risk management drives a FISMA mandated security
program and NIST compliant certification and accreditation process.

FISMA requires periodic assessments of the risk and magnitude of harm that could
result from the unauthorized access, use, disclosure, disruption, modification, or
destruction of information or information systems. Risk assessment is the first step in
the risk management process. Organizations use risk assessment to determine the
extent of the potential threat to information and information systems, and to ensure that
the greatest risks have been identified and addressed.

The OIG has previously recommended that the agency ensure complete formal risk
assessments are prepared in accordance with NIST guidance.3 The RRB has begun
the process of developing a risk assessment process. In FY 2006, the Bureau of
Information Services (BIS) drafted a formal risk assessment methodology which is
expected to be further developed and implemented by the Security and Privacy
Committee. Our review of the initial draft of the risk assessment methodology shows
that it incorporates NIST standards and guidance on risk management, minimum
security requirements, and certification and accreditation. The draft also incorporates
existing RRB policies concerning risk analysis.

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.

Policies and Procedures

The RRB’s policies and procedures continue to need improvement to ensure that they
are comprehensive and effective in all areas of the agency’s information security
program.

FISMA requires that agencies include risk-based policies and procedures that cost-
effectively reduce information security risks to an acceptable level and ensure that
information security is addressed throughout the life cycle of each information system in
their information security programs. FISMA also requires each agency to have policies
and procedures that ensure compliance with minimally acceptable system configuration
requirements, as determined by the agency.

The OIG has previously recommended that the RRB develop an agency-wide security
configuration policy for server operating systems, and policy and procedures for the
review of contractor operations in accordance with NIST guidance.4

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.

Testing and Evaluation

The RRB’s efforts to implement a consistent, FISMA compliant testing and evaluation
process are not complete. Although the agency has begun planning for such a process,
much work remains to be done.

FISMA requires periodic testing and evaluation of the effectiveness of information
security policies, procedures, and practices, performed with a frequency depending on

3
    OIG Report No. 05-08, Recommendation 4.
4
    OIG Report No. 05-11, Recommendations 1 and 2.
risk, but no less than annually. The periodic tests and evaluation must include testing of
management, operational, and technical controls for every system identified in the
agency’s inventory of systems. NIST Special Publication (SP) 800-53A, “Guide for
Assessing the Security Controls in Federal Information Systems,” provides procedures
for assessing the effectiveness of security controls employed in Federal information
systems and directly supports the security certification and accreditation process.

The OIG previously reported that prior RRB tests did not meet FISMA requirements
because they did not include all major application systems and were not comprehensive
with respect to all three categories of controls: management, operational and technical.
In addition, the agency had not consistently performed tests of contractor operations.

The OIG previously recommended that management act to ensure that periodic
independent evaluations of system security for major applications be performed, and to
ensure the quality of security self-assessments.5

In FY 2006, BIS incorporated a subset of the NIST SP-800-53A procedures as a test
plan for common controls which are not specific to any one major application or general
support system. Testing of these controls is the responsibility of the BIS Risk
Management Group. The common controls address the development of policies and
procedures, continuity planning, incident response, physical environment security, and
personnel security. Testing has begun. The remaining NIST SP-800-53A procedures
will become the responsibility of the Security and Privacy Committee, and a test plan
will be designed to specifically address each individual major application or general
support system.

Training

The RRB has met the FISMA requirement for information security training. During FY
2006, the RRB implemented a role-based security training curriculum and has provided
a substantial portion of the current year’s training plan to employees with significant
security responsibilities. In addition, the agency continued its existing program for
providing general security awareness training to employees and contractors.

FISMA requires agencies to provide security awareness training to inform personnel,
including contractors and other users of information systems that support the operations
and assets of the agency, of information security risks associated with their activities as
well as their responsibilities in complying with agency policies and procedures designed
to reduce these risks. In addition to security awareness training, agencies are required
to provide appropriate training on information security to personnel with significant
security responsibilities.

The OIG cited the RRB with a significant deficiency in training during FY 2001 because
individuals with decision-making responsibilities for information system security did not

5
    OIG Report No. 02-04, Recommendation 3.
    OIG Report No. 03-02, Recommendations 1, 2, 3, and 4.
have adequate formal training in the theory, principles, and practice of information
security. During FY 2006, we observed that the RRB had ensured all employees with
significant security responsibilities completed a substantial portion of the current year’s
training plan. As a result, the OIG no longer considers training to be a significant
deficiency.

Prior OIG recommendations for corrective action will remain open, until the agency has
provided the balance of training planned under the new role-based security training
curriculum. The OIG has no additional recommendations to offer at this time.

Security Plans

FISMA requires that agencies maintain subordinate plans for providing adequate
information security for networks, facilities, and systems or groups of information
systems. The RRB has developed and maintains such plans.

Remedial Action Process

The RRB continues to experience difficulty in implementing a remedial action process
that is sufficient to meet FISMA and OMB requirements. In FY 2005, we reported that
the existing POAM was not comprehensive with respect to identified weaknesses, was
not driven by internal risk assessments and control evaluations, and did not
demonstrate prioritization of agency plans and efforts to correct the weaknesses found.
Current-year action has not been sufficient to correct these deficiencies.

FISMA requires Federal agencies to maintain a process for planning, implementing,
evaluating, and documenting remedial action to address any deficiencies in the
information security policies, procedures, and practices of the agency. OMB requires
agencies to develop a formal Plan of Action and Milestones (POAM) to identify
vulnerabilities in information security and track the progress of corrective action. Each
year, OMB requires the Inspectors General to assess the agency’s POAM as part of the
FISMA reporting process.

The OIG previously recommended that the RRB review and revise its remedial action
process.6 In FY 2006, the BIS began to track weaknesses and related
recommendations for corrective action using an automated project management tool.
However, this initiative has not been fully effective. At the time of our review, the
automated system was being used to track only those recommendations that the OIG
had previously identified as most significant to achieving an effective, FISMA compliant
security program. The automated system includes data for 33 recommendations for
which corrective action is pending, which represents only 46% of all outstanding OIG
recommendations for improved information security. Additionally, BIS has not begun to
use the new system to track weaknesses identified through agency reviews performed
internally or by their contractor consultants.


6
    OIG Report No. 05-11, Recommendation 3.
Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.

Incident Handling and Reporting

The RRB’s incident handling and reporting program is generally effective in ensuring the
confidentiality, integrity and availability of the agency’s information and information
technology.

FISMA mandates that Federal agencies develop, document and implement procedures
for detecting, reporting, and responding to security incidents as part of its agency-wide
information security program.

The OIG performed a detailed review of the RRB’s incident handling and reporting
program during FY 2006.7 Although we identified some areas of program management
that could be improved, we found that the agency’s overall efforts were sufficient to
meet the requirements established by FISMA.

The RRB has agreed with the OIG recommendations for corrective action presented in
that report, and has begun to address these deficiencies. The OIG has no additional
recommendations to offer at this time.

Continuity of Operations

The agency’s disaster recovery plan provides assurance that major information
technology functions would be operational in the event of a disaster. However, the plan
does not provide reasonable assurance that the agency will be able to recover from a
major disaster and perform its critical business functions in a timely manner.

FISMA requires Federal agencies to implement plans and procedures to ensure
continuity of operations for information systems that support the operations and assets
of the agency.

The OIG performed an evaluation of the RRB’s disaster recovery plan during FY 2006.8
We found that the RRB limits disaster recovery tests to the recovery phase of the plan
and, as a result, does not have adequate assurance that procedures are maintained in
a constant state of readiness. Additionally, the RRB has not completed corrective
action to implement prior OIG recommendations that the agency update its overall
disaster recovery plan and ensure that all decisions related to the disaster recovery
contract be formally documented.9



7
  OIG Report No. 06-09. 

8
  OIG Report No. 06-08. 

9
  OIG Report No. 02-04, Recommendation 6. 

  OIG Report No. 02-12, Recommendation 3.
The RRB has agreed with the OIG recommendations for corrective action presented in
OIG Report No. 06-08, and has begun to address these deficiencies. The OIG has no
additional recommendations to offer at this time.

Inventory of Systems

The agency has not yet completed compilation of a reliable inventory of its systems. In
FY 2006, BIS started the process of compiling a single, comprehensive inventory of
application systems that is intended to address the needs of all organizational units.

FISMA established a requirement that each agency develop, maintain, and annually
update an inventory of major information systems operated by the agency or that are
under its control. This inventory is to include an identification of the interfaces between
each system and all other systems or networks, including those not operated by or
under the control of the agency.

In FY 2005, we reported that the RRB had not compiled a reliable inventory that
identifies component applications operating in the end-user computing general support
system, the related server locations or the security administrators. We also reported
that the RRB’s system inventories are maintained by several different organizational
units whose efforts are not coordinated or consistent. Accordingly, the OIG has
recommended that the agency take action to improve its systems inventory.10

In FY 2006, we reviewed agency efforts to date and noted that the BIS inventory
continues to omit some systems identified by other organizational units. Additionally,
the inventory does not show the same information system platform indicators
(mainframe vs. end-user computing) for all systems. We shared these discrepancies
with BIS in accordance with OMB’s FY 2006 FISMA reporting requirements.

Agency action to implement prior OIG recommendations for corrective action is
pending; the OIG has no additional recommendations to offer at this time.




10
     OIG Report No. 05-08, Recommendations 1, 2, and 3.
